               U.S. Department of the Interior
               Office of Inspector General




Independent
Review Will
Help Protect
Integrity of
Appraisal
Process




                        Virgin River, Red Cliffs Desert Reserve near St. George, Utah
                                             Office of Inspector General Photograph



                  Land Exchanges and Acquisitions
                     Bureau of Land Management
                                Utah State Office

                                                 Report No. 2001-I-413
                                                             July 2001
                         United States Department of the Interior

                                          Office of Inspector General
                                                Western Region
                                                    Federal Building
                                             2800 Cottage Way, Suite E-2712
                                                Sacramento, California 95825
                                                                                    July 31, 2001
                                                                                             7430

Memorandum

To:          Piet deWitt
             Acting Assistant Secretary, Land and Minerals Management

From:        Michael P. Colombo
             Regional Audit Manager

Subject:     Final Report on Land Exchanges and Acquisitions, Utah State Office, Bureau of Land
             Management (Report No. 2001-I-413)

    The attached report presents the results of our review of the Bureau of Land Management=s (BLM)
land exchanges and acquisitions in Washington County, Utah. We believe the report balances BLM=s
attempt to meet its mission objectives in Utah and our concerns on safeguarding the integrity of BLM=s
appraisal process and precluding any appearance of conflict of interest or wrongdoing. As agreed, the
third-party peer review of BLM=s appraisal process is a mutually acceptable resolution that will help
ensure an appraisal process that, in your words, Aprotects the integrity and objectivity of the appraisal
process and ensures accountability of appraisers in conformance with professional and Federal
appraisal standards.@

    We appreciate the cooperative spirit shown by BLM staff in working with us to mediate the issues
addressed in this report. Their professionalism and assistance enabled us to reach consensus on
important issues and produce a report that we believe reflects a balance between our positions. We
particularly wish to thank Mr. Carson (Pete) Culp, Assistant Director for BLM=s Minerals, Realty, and
Resource Protection, and Mr. Ray Brady, Lands and Realty Group Manager at BLM=s headquarters
office, for their important contributions.

   Section 5(a) of the Inspector General Act requires us to list this report in our semiannual report to
Congress. In addition, we provide audit reports to Congress. If you have any questions or comments
regarding our report, please call me at (916) 978-5653.

Attachment

cc: Director, Bureau of Land Management (MS 5660)
    Audit Liaison Officer, Bureau of Land Management (MS 1000 L St.)
    Audit Liaison Officer, Assistant Secretary for Land and Minerals Management
      (MS 6628)
    Focus Leader for Management Control and Audit Follow-up (MS 5412)
Executive Summary
Bureau of Land Management
Land Exchanges and Acquisitions, Utah State Office

Results In Brief     The Bureau of Land Management (BLM) should obtain a thorough
                     and objective review of its appraisal organization, policies, and
                     procedures to identify changes to protect the integrity of the
Integrity of BLM’s   appraisal process. In trying to meet its land exchange and
Appraisal Process    acquisition objectives in Washington County, Utah, BLM may have
Should Be            compromised the integrity of its appraisal process, a key control in
Protected            ensuring the integrity of public land transactions and valuations
                     and precluding the appearance of conflict of interest and
                     wrongdoing. Appraisers performing appraisals and reviews for
                     BLM must be objective and provide independent, unbiased, and
                     professional analyses of market information. We concluded,
                     however, that BLM did not sufficiently emphasize the
                     independence and objectivity of the appraisal process or ensure
                     that appraisal reviews complied with appraisal standards.

                     BLM’s Utah State Office is acquiring land in Washington County
                     near St. George through a combination of land exchanges and
                     direct purchases to provide protected habitat for plant and animal
                     species listed as “threatened” by the U.S. Fish and Wildlife
                     Service under the Endangered Species Act. For the most part, the
                     land being acquired is located within the boundaries of the
                     61,000-acre Red Cliffs Desert Reserve, a habitat conservation
                     plan (HCP) area intended to help protect the Mojave desert
                     tortoise. BLM’s acquisition and protection of land within the HCP
                     area will allow private development to continue elsewhere within
                     Washington County. For the 3-year period ended June 1999, BLM
                     had exchanged about 1,169 acres of public land valued at
                     approximately $3.2 million, acquired about 929 acres of land
                     valued at approximately $8.6 million, and was working to acquire
                     an additional 18,000 acres.

                     Initially, controversy regarding establishment of the HCP area
                     delayed the acquisition process. Affected landowners in
                     Washington County strongly opposed any decrease in the value of
                     their lands that could result from the listing of the desert tortoise
                     and the creation of the HCP. They also strongly opposed the
                     position taken by BLM’s Utah appraisal staff that federal appraisal
                     standards required appraisers to consider the effect of the tortoise
                     when estimating the fair market value of land and were concerned
                     that they would not be treated fairly in BLM’s appraisal process.


                                                       i
To overcome landowners’ lack of confidence in its appraisal
process and to “jump start” the acquisition process, BLM
transferred responsibility for administering and reviewing
Washington County appraisals to its Senior Specialist for
Appraisal in the Washington Office. The Senior Specialist
developed and implemented an alternative approach, which
opened up the appraisal process to involve landowners.
According to the Senior Specialist, this approach increased the
chances for acquiring the property, potentially reduced the costs of
delays associated with disputes, and improved local landowner
confidence in BLM’s acquisition programs.

The Federal Land Exchange Facilitation Act of 1988 “envisioned
a cooperative approach in completing land exchanges,” and,
according to the Senior Specialist, BLM’s alternative approach
attempted to balance the relationship between the agency and the
landowner and improve the credibility of the appraisal report. We
recognize that appraising is not an exact science and that
differences in opinion on appraised values frequently occur,
especially in situations where comparable sales are limited or the
potential for development is speculative. We found, however, that
the alternative approach did not separate the appraisal process
from price negotiations. We concluded that it was inherently risky
and could not be effectively controlled to protect the integrity of
the appraisal process and preclude any appearance of wrongdoing,
such as altering land appraisal values to negotiate a price with the
landowner. Also, BLM’s appraisal approach did not provide
assurance that lands were properly appraised and valued.

We also noted that the Senior Specialist, in presenting his
alternative approach in an article published in an industry
magazine, discussed potential disadvantages, including the
“substantial risks to opening up the valuation process for voluntary
acquisitions.” The Senior Specialist stated: “Others may feel that
the appraisal review process has been compromised and that it has
been merged into the negotiation process. Without adequate
management controls, the wall preventing fraud, waste, and abuse
will have been weakened.” In our opinion, this “wall” was indeed
weakened in BLM’s Utah land exchanges and acquisitions.




                                 ii
 Opportunities to   To protect the integrity of its appraisal process and preclude the
                    appearance of conflict of interest or wrongdoing and to address the
 Improve the        results of our review in Utah and the findings of our prior audits of
 Land Valuation     BLM land exchange activities in Nevada (see Appendix 2), we
 Process            believe that BLM should obtain a thorough and objective review
                    of its appraisal process. In that regard, we note that the U.S.
                    Forest Service (USFS), to address problems in its appraisal
                    process identified by the U.S. Department of Agriculture’s Office
                    of Inspector General, contracted with The Appraisal Foundation
                    for an independent review of USFS’s appraisal organization,
                    policies, and procedures. USFS specifically asked The Appraisal
                    Foundation to determine the steps needed to build a first-class
                    appraisal system that protected the integrity of the appraisal
                    process.


Recommendations     Accordingly, we recommended that the Director of BLM:

                        1. Obtain a peer review from The Appraisal Foundation of
                        BLM’s appraisal organization, policies, and procedures,
                        including an evaluation of the alternative approach
                        implemented in Washington County, Utah.

                        2. Implement the changes recommended by the peer review to
                        ensure that BLM has a first-class appraisal system that
                        protects the integrity and independence of the appraisal
                        process.

Agency Response     In his June 6, 2001 response to the draft report (Appendix 3), the
                    Acting Assistant Secretary concurred with the report’s two
and Office of       recommendations. The Acting Assistant Secretary stated that BLM
Inspector           would involve The Appraisal Foundation in conducting a review
General Reply       of BLM’s appraisal organization, policies, and procedures,
                    including the appraisal review approach BLM used in Washington
                    County, Utah. The review is to be initiated by contract with an
                    anticipated delivery of The Appraisal Foundation’s final report by
                    June 2002.

                    BLM also would implement the changes recommended by The
                    Appraisal Foundation that protect the integrity and objectivity of
                    the appraisal process and ensure accountability with professional
                    and federal appraisal standards. Appropriate changes are to be
                    implemented by BLM Instruction Memorandum and updates of
                    BLM’s Appraisal Manual and Land Exchange Handbook by
                    October 2002. Accordingly, the Acting Assistant Secretary’s
                    response is sufficient to consider the two recommendations

                                                    iii
resolved, but not implemented. The two recommendations will be
referred to the Assistant Secretary for Policy, Management and
Budget for tracking of implementation (Appendix 4).
We appreciate BLM’s cooperative spirit in working together to
resolve issues and obtain a consensus so that recommended actions
address the underlying issues and the report reflects a balance
between differing positions. As BLM officials seek the services of
The Appraisal Foundation, we extend our cooperation and
assistance in ensuring that the scope of the work developed
“protects the integrity and objectivity of the appraisal process and
ensures accountability of appraisers in conformance with
professional and Federal appraisal standards,” as stated in the
Acting Assistant Secretary’s response.




                                 iv
Contents
Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
      Appraisal Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
      Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . 5

Integrity of BLM’s Appraisal Process
    Questioned . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
       Appraisal Process Was Not Objective . . . . . . . . . . . . . . . 5
       Appraisal Reviews Did Not Meet Standards . . . . . . . . . 8

Opportunities to Improve the Land Valuation
   Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

Agency Response and Office of Inspector
   General (OIG) Reply . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

Appendices
 1   Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . .                15
 2   Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . .             16
 3   Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          19
 4   Status of Audit Recommendations . . . . . . . . . . . . . . . . .                    22

Abbreviations

   BLM . . . . . . . . . . . . . . . . . . . . . . . Bureau of Land Management
   CFR . . . . . . . . . . . . . . . . . . . . . . . Code of Federal Regulations
   GAO . . . . . . . . . . . . . . . . . . . . . . . . . General Accounting Office
   HCP . . . . . . . . . . . . . . . . . . . . . . . . . Habitat Conservation Plan
   OIG . . . . . . . . . . . . . . . . . . . . . . . . Office of Inspector General
   UASFLA                          Uniform Appraisal Standards for Federal
                  . . . . . . . . . . . . . . . . . . . . . . . . . . Land Acquisitions
   USC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . United States Code
   USFS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. Forest Service
   USPAP . Uniform Standards of Professional Appraisal Practice




                                              v
vi
Background   BLM manages and protects approximately 264 million acres of
             public land, including almost 23 million acres in the State of Utah.
             As part of its responsibilities, BLM is authorized to acquire
             additional land through fee purchase or land exchange; that is,
             trading public land for land owned by corporations, states, or
             individuals. Federal law requires that such acquisitions and
             exchanges serve the public interest by protecting critical wildlife
             habitat, enhancing recreational opportunities, consolidating or
             improving the management of public lands, or promoting some
             other BLM mission-related
             goals and objectives.

             BLM’s Utah State Office is
             attempting to acquire land in
             Washington County near
             St. George, Utah, through land
             exchanges and direct
             purchase. For the most part,
             the land being acquired is
             located within the boundaries
             of the 61,000-acre Red Cliffs
             Desert Reserve, an HCP area
             intended to provide protected habitat for, and thereby assist in, the
             preservation of the Mojave desert tortoise, a species listed as
                                                       “threatened” by the U. S.
                                                       Fish and Wildlife
                                                       Service.1 BLM’s
                                                       acquisition and protection
                                                       of land within the HCP
                                                       area will allow private
                                                       development to continue
                                                       elsewhere within
                                                       Washington County.

                                                       Initially, controversy
             Mojave Desert Tortoise                    regarding establishment of
             Photo courtesy of Kathie Meyer,           the HCP area delayed the
             U.S. Geological Survey                    acquisition process.
                                                       Affected landowners
             strongly opposed any decrease in the value of their lands that
             would result from the listing of the desert tortoise and the creation


              1
               The U.S. Fish and Wildlife Service maintains a list of species considered to be either
              threatened or endangered. Threatened species are those likely to become endangered,
              that is, in danger of extinction within the foreseeable future throughout all or most of the
              area in which they are found.

                                                          1
            of the HCP area. They also strongly opposed the position taken by
            BLM’s Utah appraisal staff that federal appraisal standards
            required appraisers to consider the effect of the tortoise when
            estimating fair market value. BLM then removed the Utah
            appraisal staff from responsibility for Washington County
            appraisals. Local landowners remained concerned, however, that
            they would not be treated fairly in BLM’s appraisal process. To
            overcome the landowners’ lack of confidence in the appraisal
            process and to allow land acquisitions to proceed, BLM’s Utah
            State Director requested that BLM’s Washington Office Senior
            Specialist for Appraisal assume responsibility for administering
            and reviewing Washington County appraisals. The Senior
            Specialist implemented an alternative approach that opened up the
            appraisal process to involve landowners.




                      Red Cliffs Desert Reserve and Adjacent Residential Development
                                                             Washington County, Utah
                                               Office of Inspector General Photograph


Appraisal   BLM conducts land exchanges under the authority of Section 206 of
Process     the Federal Land Policy and Management Act of 1976, including
            amendments pursuant to the Federal Land Exchange Facilitation
            Act of 1988.2 In passing this legislation, Congress sought to
            facilitate and expedite land exchanges by directing BLM to ensure
            that public and private lands were uniformly appraised in
            conformance with nationally recognized appraisal standards and by
            giving BLM new authority to resolve disputed appraised values
            through arbitration or bargaining. Under this legislation, if the
            parties to an exchange cannot agree to accept the appraised values,



             2
              Public Laws 94-579 and 100-409 (43 U.S.C. ' 1716).

                                                  2
they can instead determine the value of the properties by submitting
the appraisals to arbitration or by using a bargaining process.

BLM’s land acquisition activities are authorized by the Uniform
Relocation Assistance and Real Property Acquisition Policies Act
of 19703 and other laws. This Act and its implementing regulations
also established standards for the appraisal of land for acquisitions
by both purchase and condemnation. 4 These laws, together with
implementing regulations and BLM’s supplemental appraisal
policy guidance,5 require BLM to value the land it acquires and
exchanges based on appraisals prepared by qualified appraisers in
accordance with professional and federal appraisal standards.6
The appraisal standards require that land be appraised at its fair
market value, which is defined as the amount for which land would
be sold, for cash or equivalent, by a willing and knowledgeable
seller, who is not obligated to sell, to a willing and knowledgeable
buyer, who is not obligated to buy.

Determining fair market value requires the appraiser to first
identify the land’s “highest and best use.” According to federal
appraisal standards, the highest and best use of land is ordinarily
its current use, and the appraiser must demonstrate a reasonable
probability that the land could and would be used for some other
purpose before concluding there is a different highest and best use.

Professional and federal appraisal standards and federal
regulations (49 CFR 24.103) also require that appraisers identify,
verify, analyze, and reconcile all pertinent information to develop
their appraised value opinion. They must then report their opinions
and conclusions clearly and accurately in a manner that is not
misleading and conveys sufficient information to facilitate
understanding of the report.

Appraisal standards, regulations, and BLM’s Manual also require
that appraisal reports be reviewed by a qualified review appraiser




 3
     Public Law 91-646 (42 U.S.C. ' 4601 U.S.C. et seq).
 4
  Code of Federal Regulations (49 CFR 24.103 and 24.104).
 5
  Bureau Manual, Section 9310, “Real Property Appraisals.”
 6
  The applicable professional appraisal standards are The Uniform Standards of
 Professional Appraisal Practice (USPAP), published and revised annually by The
 Appraisal Foundation. The federal appraisal standards are the Uniform Appraisal
 Standards for Federal Land Acquisitions (UASFLA), published by the Interagency
 Land Acquisition Conference, 1992.

                                          3
to ensure that they meet applicable appraisal standards.7 Review
appraisers must provide an independent, unbiased, and
professional analysis of the technical adequacy of the appraisal
report and value estimate and document their review in a written
report prepared in compliance with professional appraisal
standards and supplemental requirements in the BLM Manual. If
the reviewer does not accept the appraiser’s opinion of value and
substitutes a different value, the reviewer must, among other things,
identify and state the additional data relied upon and the reasoning
and basis for a different opinion of value.8

The entire appraisal process, including appraisal reviews, is a key
control in protecting the integrity of BLM’s land acquisition
program. Unlike other transactions that depend on competitive
sales procedures such as auctions or sealed bidding to establish a
fair price, BLM’s land exchanges and acquisitions are voluntary
transactions that rely on appraisals to establish the fair market
value of the land involved. The independence and objectivity of
the appraiser and review appraiser, as well as sufficient
documentation of their valuations, are therefore critical factors in
ensuring the acquisition or exchange of land based on fair market
value and in precluding the appearance of conflict of interest or
wrongdoing.

We recognize that appraising land is not an exact science and that
qualified appraisers, in applying their analytical skills and
judgments, can reach markedly different opinions of value for the
same land. This is especially true when unique or unusual land is
involved or when similar sales are not available for comparison.
In our opinion, the review appraiser is a key control in addressing
differences, maintaining independence and objectivity, estimating
fair market value, and protecting the integrity of the appraisal
process and public confidence in an agency acquisition program.




 7
  Under federal appraisal standard C-8 “Appraisal Review,” the review appraiser
 determines whether the appraisal is adequately supported; complies with recognized
 appraisal standards, principles, and practices; and conforms to governing legal premises
 as prescribed by legal counsel. Federal regulations (49 CFR 24.104) further require
 that a “qualified reviewing appraiser . . . examine all appraisals to assure that they meet
 applicable appraisal requirements and . . . prior to acceptance, seek necessary
 corrections or revisions.”
8
 USPAP Standard Rule 3-1.

                                            4
Scope and           We reviewed 10 land exchange and acquisition case files
Methodology         administered by BLM’s St. George Field Office involving the
                    exchange of about 1,169 acres of public land valued at
                    approximately $3.2 million and the acquisition of about 929 acres
                    of land valued at approximately $8.6 million. Within these case
                    files, we selected and analyzed eight appraisal review reports to
                    determine whether they complied with professional and federal
                    appraisal standards and supplemental BLM policies. The scope
                    and methodology of our review are further detailed in Appendix 1.
                    Prior audits of BLM land exchange activities are summarized in
                    Appendix 2.


Integrity of        BLM may have compromised the independence and objectivity of
                    its appraisal process by using an alternative approach that did not
BLM’s Appraisal     separate the appraisal process from price negotiations. BLM also
Process             did not ensure that its appraisal reviews complied with appraisal
                    standards or that land was acquired and exchanged based on fair
Questioned          market value. Although BLM undertook the alternative approach
                    to more effectively meet its land acquisition objectives in
                    Washington County, we believe that use of this approach increased
                    the appearance of conflict of interest and wrongdoing and brought
                    the integrity of BLM’s land acquisition program into question.

Appraisal Process   To overcome landowners’ lack of confidence in BLM’s appraisal
Was Not Objective   process and to help accomplish BLM’s land exchange and
                    acquisition objectives, BLM’s Senior Specialist for Appraisal, in
                    effect, used his reviews9 to assist in negotiating land values
                    acceptable to landowners. Under this approach, the Senior
                    Specialist reviewed appraisals but did not immediately prepare
                    review reports documenting the results of his reviews or
                    conclusions. Instead, he shared appraisal reports with the
                    landowner and then met with the landowner, the appraiser, and
                    BLM realty and field office management staff to identify and
                    resolve any disagreements the landowner might have with the
                    appraiser’s techniques, facts, assumptions, and value conclusions.
                    When agreement was reached on an appraised value satisfactory to
                    the landowner, the Senior Specialist finalized a review report and
                    recommended a value for the proposed acquisition or exchange to
                    BLM’s Utah State Director for approval.




                    9
                     BLM’s Senior Specialist for Appraisal described his appraisal review approach in the
                    article “A Successful Approach to Voluntary Land Acquisitions” in the May/June 1999
                    edition of Right of Way Magazine, an industry magazine published by the
                    International Right of Way Association.

                                                              5
 According to BLM, its goal was “to reach agreement on market
value,” and to that end, appraisals reviewed and approved by the
Senior Specialist “reflected the views of the affected property
owners regarding the interpretation and usefulness of data relied
on by the appraiser.” According to the Senior Specialist, 10 his
appraisal review approach was specifically tailored to “enhance
the development of trust between the property owner and the
acquiring agency” and was “based on an assumption that the
current approach is outmoded and that the property owners should
have an opportunity to be more involved in the appraisal and
acquisition” process. We found, however, that BLM’s intent to
make the appraisal process a more cooperative one with the
landowner diminished the objectivity of the process and appeared
to adjust the appraised value to the landowner’s desired
selling/exchange values, thereby ensuring that an exchange or
acquisition would occur without the need for formal bargaining or
arbitration. For example:

     ‚ In one transaction, the Senior Specialist, in an appraisal
       review report to BLM’s Utah State Director, stated that the
       values recommended were “for purposes of reaching
       agreement with [the landowner].” For one of the parcels
       appraised, the Senior Specialist established a value less
       than the amounts estimated by any of the other appraisals
       because the landowner was “apprehensive in taking [the
       public land] at the appraised values.” The Senior
       Specialist also stated that he “met with [the landowner]
       . . . . regarding the appraisal reports. Because of the
       disparity in the appraised values, we reached preliminary
       agreement . . . on the relative values of the properties
       involved in this land exchange.”

     ‚ In another transaction, the Senior Specialist asked the
       appraiser to consider comparable sales that were not
       reflected in the original appraisal report so as “to reach
       agreement on values” of a parcel of public land with a
       landowner. The appraisal addendum provided by the
       appraiser and used by BLM to complete an exchange
       reduced the estimated value of the federal land by
       27 percent. We found that the appraiser’s revised
       comparable sales analysis was not adequately supported.
       In addition, the appraisal addendum did not reconcile the
       new, lower value estimate to the significantly higher
       development approach value the appraiser estimated in his

10
 “A Successful Approach to Voluntary Land Acquisitions,” Right of Way
Magazine, May/June 1999.

                                       6
          original appraisal report and did not explain/reconcile the
          conflicting approaches.11

     ‚ In another transaction, the Senior Specialist asked the
       appraiser to prepare a development approach analysis
       estimating the value of a parcel of private land. The
       appraiser provided the Senior Specialist with an appraisal
       addendum that increased the estimated value of the private
       land by 12 percent based exclusively on the development
       approach analysis. We found that the appraisal addendum
       did not reconcile the new, higher value estimate to the
       lower comparable sales approach value the appraiser
       estimated in his original appraisal report. Moreover, we
       found that the appraiser’s development approach analysis
       for the property was not supported by site-specific
       engineering, marketing, and cost data, even though the
       appraiser’s original report stated that it would be
       inappropriate to use the development approach without
       these data.

     ‚ In one larger and more difficult transaction, the Senior
       Specialist recommended to BLM’s Utah State Director the
       higher of two appraised values to help acquire a parcel of
       land. The value recommended was 30 percent higher than
       the value estimated by the landowner’s own appraiser and
       was based on a questionable comparable sales analysis,
       which concluded that the highest and best use of the land
       was a mixture of commercial, business or industrial use,
       but which did not use any comparable sales with a similar
       highest and best use. Instead, the appraiser used
       residential properties as comparable sales and increased
       his estimate of value by 20 percent to compensate for the
       use of noncomparable sales.

The Senior Specialist’s approach to the appraisal reviews was not
consistent with professional and federal appraisal standards,
which emphasize the necessity of independence and objectivity.
We believe that by allowing the Senior Specialist to directly
involve landowners in appraisal reviews, BLM compromised the
independence and objectivity of the appraisal process as a



11
  The development approach is a method of appraising undeveloped acreage having a
highest and best use for subdivision into lots. The method consists of estimating a final
sale price for the total number of lots into which the property could best be divided and
then deducting for all costs of development, including the developer’s desired profit.
(UASFLA, page 25.)

                                            7
                       meaningful quality control function to protect the integrity of the
                       land acquisition process.

                       In commenting on a preliminary draft of this report, BLM stated
                       that the Senior Specialist’s appraisal review approach complied
                       with the Federal Land Exchange Facilitation Act, which was
                       enacted to facilitate and expedite land exchanges and which
                       “envisioned a cooperative approach in completing land
                       exchanges.” In passing this legislation, however, Congress
                       authorized and directed BLM to use a two-pronged approach
                       which clearly identifies and separates the appraisal process from
                       the process of resolving disputes over appraised values. First,
                       BLM was directed to issue land exchange regulations ensuring that
                       all lands were appraised in conformance with nationally
                       recognized appraisal standards (USPAP and UASFLA). Second,
                       BLM and the landowner can seek arbitration or some other
                       mutually agreed on process, if they do not agree on the appraised
                       value of the land.

                       We found, however, that despite disagreements over appraised
                       values, none of the transactions that we reviewed involved
                       arbitration or formal bargaining. We believe that the Senior
                       Specialist, in seeking to encourage landowner participation in the
                       appraisal process to help accomplish BLM’s land acquisition
                       objectives, combined valuation, negotiation, and arbitration of
                       disputes under a single alternative approach. We note that in his
                       article, the Senior Specialist, in describing his alternative
                       approach, stated: “Others may feel that the appraisal review
                       process has been compromised and that it has been merged into the
                       negotiation process. Without adequate management controls, the
                       wall preventing fraud, waste, and abuse will have been
                       weakened.” In our opinion, this “wall” was indeed weakened in
                       BLM’s Utah land exchanges.

Appraisal Reviews The appraisal reviews performed by the Senior Specialist did not
Did Not Meet      provide assurance that appraisals met professional and federal
Standards         appraisal standards or that BLM acquired and exchanged land
                                                                     12
                       based on fair market value. Professional standards require that
                       the review appraiser express opinions on the completeness and
                       adequacy of the appraisal. Without these opinions, users of the
                       review reports do not have assurance that (1) appraisals were
                       complete; (2) appraisal data were adequate and relevant and
                       adjustments appropriate; (3) appraisal methods and techniques
                       were appropriate; and (4) analyses, opinions, and conclusions


                       12
                         USPAP Standard 3-1.

                                                         8
were appropriate. The standards13 also require the review
appraiser to certify that his or her review meets appraisal review
standards and that the reviewer is independent and unbiased.
We found that five of the eight reports we reviewed did not
include one or more of the required opinions and four of the five
did not include any of the required opinions. We also found that
the appraisal review certification requirements were not met. For
example:

     ‚ In one transaction, the appraisal review report did not
       express any opinions or include the required certifications.
       As a result, there was no assurance that the appraised
       values represented fair market value or that the appraisal
       review complied with appraisal standards. In this case,
       we noted that the Senior Specialist recommended the use
       of unsupported values “to expedite the land exchange and
       eliminate the need for a second appraisal report.”

     ‚ In another transaction, the appraisal review report did not
       express any opinions or include all of the required
       certifications. The Senior Specialist did not explain or
       support the values he established for four of the five
       parcels involved, despite the existence of three separate
       appraisals.

We noted that required certifications concerning the scope and
quality of the appraisal reviews were omitted or were so
significantly different from language suggested by the appraisal
standards that we could not determine what assurance the Senior
Specialist intended. The USPAP certification statements most
often omitted or revised were those which would have assured
users of the appraisal review report that the review appraiser (1)
used and reported accurate facts and data, (2) expressed opinions
and conclusions that were the result of unbiased professional
analyses, and (3) developed analyses, opinions, and conclusions
and prepared the review report in conformity with USPAP.

The lack of the opinion statements and certifications, by
themselves, might be considered nothing more than a technical
violation of appraisal standards. Our concern, however, is that
these omissions occurred in cases where we also found that
appraised values were not adequately supported and that the
appraisal process had not been separate from price negotiations.
The combination of these factors, in our opinion, undermined
public confidence in the appraisal process and raised questions as

13
  USPAP Standard 3-2.

                                 9
                   to whether the appraisal process resulted in estimates of fair
                   market value.


Opportunities to   To protect the integrity of its appraisal process and preclude the
                   appearance of conflict of interest or wrongdoing, we believe BLM
Improve the        should obtain a thorough and objective review of its appraisal
Land Valuation     organization, policies, and procedures, including the alternative
Process            approach implemented in Washington County. The appraisal
                   process is the key control for ensuring that BLM exchanges and
                   acquires land based on fair market value as required by laws and
                   regulations. For this control to be effective, however, appraisers
                   performing appraisals and reviews for BLM must be independent,
                   objective, and free of agency influence. In this regard, we looked
                   at problems in the USFS’s Nevada land exchange program
                   identified by the U.S. Department of Agriculture’s Office of
                   Inspector General.14 Problems included overvaluing land by
                   relying on appraised values that were not supported by credible
                   evidence and appraisals that did not meet federal appraisal
                   standards.

                   Among the corrective actions taken by USFS was the award of a
                   contract to The Appraisal Foundation15 to independently review
                   USFS appraisal policies, procedures, staff, and organization and
                   recommend the actions needed to constitute a first-class appraisal
                   system, including procedures to (1) protect the integrity of the
                   appraisal process; (2) hold appraisers accountable for conforming
                   with federal and agency appraisal standards, (3) establish controls
                   precluding management interference with the valuation system
                   through inappropriate direction, (4) ensure the separation of
                   negotiations and the appraisal process to reinforce the
                   accountability provided to the public and management by the
                   appraisal process, and (5) require full documentation of data
                   considered in the appraisal process.

                   Appraisal Foundation’s report concluded that USFS appraisal
                   policies and procedures were generally sound, but included
                   recommendations for additional safeguards in the appraisal review
                   process, improving the efficiency of appraisal operations, and


                   14
                     Forest Service, Humboldt-Toiyable National Forest Land Adjustment
                   Program, Fiscal Years 1990 to 1997, U.S. Department of Agriculture, Office of
                   Inspector General (Report No. 08003-02-SF, August 1998).
                   15
                     The Appraisal Foundation is an independent non-profit organization recognized by
                   Congress as the source of appraisal standards and appraiser qualifications. The
                   Foundation’s report on the USFS, Evaluation of the Appraisal Organization of
                   the USDA Forest Service, was issued March 2000.

                                                          10
ensuring appraiser independence. Appraisal Foundation
particularly emphasized the critical importance of independence
and objectivity in the appraiser’s role. The report stated:

       Without independence and objectivity the appraiser
       does not serve the client or society. In all phases
       of the appraisal profession the appraisal provides a
       test of the validity of the proposed transaction, or
       an objective opinion of the value of the transaction.
       In this role the appraiser protects the interest of the
       parties who have some interest in the transaction
       but are not directly involved.

       The appraiser’s role is not to assist the Forest
       [USFS] in acquiring, exchanging, transferring, or
       renting real estate, nor is it to obstruct these
       transactions. The appraiser’s role is to ensure that
       appraisals used in the decision making process are
       reasonable, adequately supported and comply with
       the Forest Service Policy, the UASFLA and the
       USPAP. In order to accomplish this, the appraiser
       must remain independent.

To preclude attempts by parties with vested interests in
transactions to influence appraisers, The Appraisal Foundation
recommended that USFS institute a policy for all staff personnel
against influencing or attempting to influence any staff or contract
appraiser or reviewer. Appraisal Foundation also noted that the
current organizational structure of USFS placed line officers in a
position to influence or overrule an appraiser’s professional
opinion, a situation which could limit an appraiser’s ability to
independently fulfill his or her role. For this reason, Appraisal
Foundation recommended that USFS establish an organizational
structure in which all staff appraisers are directly supervised by
Regional Appraisers, who in turn are directly supervised by the
USFS Chief Appraiser. We noted that BLM’s organization
structure was similar to that of USFS in that BLM appraisal staff
report directly to line managers.

The Appraisal Foundation also stated that when an agency targets
a property for acquisition and the owner is aware that the agency
wants to obtain that specific property, the owner may ask for a
price higher than fair market value. The Appraisal Foundation
further stated that if the agency is to pay more than fair market
value for a property, the agency must document that “premium,”
based on the agency’s need for the property and “not through
alterations to the appraisal process. The appraiser should not

                                 11
                  justify a purchase price based upon ‘public interest value’
                  disguised as ‘fair market value.’”

                  Additional recommendations made by The Appraisal Foundation
                  to ensure the independence and objectivity of appraisers and
                  reviewers and the preparation of unbiased appraisal reports
                  included (1) ensuring that land was always appraised by either a
                  qualified staff appraiser or an appraiser selected by and directly
                  under contract to the agency; (2) retaining the current policy, as
                  stated in UASFLA, requiring all appraisals for public land
                  acquisitions to be prepared based on “fair market value,” and
                  (3) preparing detailed documentation of the appraisal review
                  process from the initial submission of an appraisal report to its
                  approval, disapproval, or rejection.


Recommendations   We recommend that the Director, BLM:

                     1. Obtain a peer review from The Appraisal Foundation of
                     BLM’s appraisal organization, policies, and procedures,
                     including an evaluation of the alternative approach
                     implemented in Washington County, Utah. The review should
                     recommend any changes needed to (a) protect the integrity of
                     the appraisal process, (b) ensure the accountability of
                     appraisers in conformance with professional and federal
                     appraisal standards, (c) establish controls to prevent managers
                     from interfering with the appraisal process through
                     inappropriate direction, (d) separate negotiations from the
                     appraisal process, (e) ensure that landowner involvement does
                     not compromise the appraisal process, and (f) ensure the
                     conduct of appraisals and appraisal reviews in conformance
                     with data, documentation, and reporting standards of federal
                     and professional appraisal standards.

                     2. Implement the changes recommended by the peer review to
                     ensure that BLM has a first-class appraisal system that protects
                     the integrity and independence of the appraisal process.




                                                  12
Agency Response   In the June 6, 2001, response to the draft report (Appendix 3), the
                  Acting Assistant Secretary concurred with the report’s two
and Office of     recommendations. The Acting Assistant Secretary stated that BLM
Inspector         would involve The Appraisal Foundation in conducting a review
General Reply     of BLM’s appraisal organization, policies, and procedures,
                  including the appraisal review approach BLM used in Washington
                  County, Utah. The review is to be initiated by contract with an
                  anticipated delivery of The Appraisal Foundation’s final report by
                  June 2002. BLM also would implement the changes recommended
                  by The Appraisal Foundation that protect the integrity and
                  objectivity of the appraisal process and ensure accountability with
                  professional and federal appraisal standards. Changes are to be
                  implemented by BLM Instruction Memorandum and updates of
                  BLM’s Appraisal Manual and Land Exchange Handbook by
                  October 2002. The responsible official is the Bureau of Land
                  Management’s Assistant Director, Minerals, Realty and Resource
                  Protection. The Acting Assistant Secretary also stated that BLM
                  believes the Senior Specialist for Appraisal acted within his
                  discretionary authority and that the appraisal process was
                  appropriately used to facilitate agreements of value with property
                  owners. BLM also has taken numerous steps to improve the
                  appraisal function and will continue to emphasize compliance with
                  applicable laws and regulations.

                  Accordingly, the Acting Assistant Secretary’s response is
                  sufficient to consider the two recommendations resolved, but not
                  implemented. The two recommendations will be referred to the
                  Assistant Secretary for Policy, Management and Budget for
                  tracking of implementation (Appendix 4). The Acting Assistant
                  Secretary’s response also made specific comments on the draft
                  report. These comments and our reply are as follows:

                  BLM Comment. In its response, the Acting Assistant Secretary
                  believed that references to “fair market value” in the report were
                  misleading, since BLM’s land exchange regulations (43 CFR
                  2200) define and use the term “market value” and provide the
                  context in which “market value” is considered by the appraiser
                  and review appraiser. The Acting Assistant Secretary stated that
                  the report should provide a clear distinction between BLM’s
                  responsibility to provide an appraisal that represents an estimate
                  of “market value,” and “fair market value,” which is reflected in
                  the amount BLM offers a property owner based on the appraisal
                  and other information considered by the authorized official within
                  the bargaining authority provided by 43 CFR 2201.4.




                                                  13
OIG Reply. The term “fair market value” is used in the report
because it is defined by professional and federal appraisal
standards as the criteria to be used by appraisers to value land.
This terminology also has been used by both GAO and The
Appraisal Foundation in their recent reports on BLM and USFS
land exchanges and appraisals activities. In addition, the
regulations cited by BLM (43 CFR 2200) relate only to land
exchanges and would therefore not be applicable in cases where
appropriated funds were used to purchase private land. We did
not change the terminology in the report and believe that the issue
of consistency in terminology and interpretation raised by BLM
would be best addressed by The Appraisal Foundation in its
review of BLM’s appraisal policies and procedures.




                                 14
                                                                    Appendix 1
                                         Scope and Methodology
We concentrated our review on BLM’s land exchanges and
acquisitions in Washington County, where the most significant land
exchanges and acquisitions in Utah were occurring and where
BLM officials told us they were using a different approach to the
appraisal review process. BLM officials identified 22 land
exchange and acquisition case files administered by the St. George
Field Office between June 1, 1996 and June 30, 1999. We
reviewed 10 case files that resulted in BLM conveying about
1,169 acres of public land valued at approximately $3.2 million
and acquiring about 929 acres of land valued at approximately
$8.6 million. 1 Within these case files, we selected and analyzed
eight appraisal review reports to determine whether they complied
with professional and federal appraisal standards and
supplemental BLM policies.

Our review was made in accordance with the “Government
Auditing Standards,” issued by the Comptroller General of the
United States. Accordingly, we included such tests of records and
other auditing procedures that were considered necessary under
the circumstances. To accomplish our review, we visited BLM’s
headquarters office in Washington, D.C.; its Utah State Office in
Salt Lake City, Utah; and its St. George Field Office in St. George,
Utah. We reviewed case file documentation and discussed the
exchanges and acquisitions with responsible BLM officials. We
also visited the offices of two of BLM’s contract appraisal firms
to obtain explanations and documentation in support of the
appraisal reports BLM used to complete exchanges or
acquisitions. In addition, we interviewed representatives of the
Utah School and Institutional Trust Lands Administration to obtain
its perspectives on the history of appraisal and valuation issues in
Washington County.2




1
 An additional 368 acres of land appraised at approximately $1,455,000 and included in
our review had not been acquired as of June 30, 1999.
2
 The Administration is an agency of the State of Utah that manages more than 3.7 million
acres of land dedicated to the financial support of public education. BLM is seeking to
acquire almost 11,000 acres of Administration land within the Red Cliffs Desert Reserve.

                                         15
Appendix 2
Prior Audit Coverage
               BLM has not always appropriately valued the lands involved in
               exchanges. We and the General Accounting Office (GAO) have
               expressed serious concerns about the integrity of BLM’s appraisal
               process in recent reports. Specifically, in 1996 and 1998, we
               reported that BLM’s practices in administering land exchange
               activities in Nevada did not ensure that land was exchanged at fair
               market value. In a June 2000 report, GAO identified similar
               concerns about BLM’s land exchange activities and concluded that
               BLM and USFS had not ensured that land being exchanged was
               appropriately valued and stated that Congress might wish to
               consider directing these agencies to discontinue their land
               exchange programs. Summaries of our audit reports are as
               follows.

                   ‚ In July 1996, we reported1 that BLM’s Nevada State Office
                     did not consistently follow prescribed land exchange
                     regulations or procedures or ensure that fair and equal
                     value was received in completing three exchanges. In one
                     exchange, for example, review appraisers inappropriately
                     increased the appraised value of private land by $1.2
                     million and decreased the value of public land by
                     $157,000. A BLM Chief Appraiser from another state
                     office initially reviewed the contract appraisal and
                     approved an appraised value of $1.5 million. The land
                     exchange proponent complained that the value was too
                     low, however, and a second review was performed at the
                     direction of the Nevada State Director, resulting in a
                     significantly higher approved appraised value of $2.7
                     million. BLM acquired the land at the higher value without
                     reconciling the $1.2 million difference. BLM could not
                     support overriding the value approved by the first review
                     appraiser, and we questioned the propriety of the second
                     appraisal review and the use of its $2.7 million approved
                     value. We also found that BLM’s Nevada Chief Appraiser
                     approved an appraised value for BLM’s land that
                     inappropriately discounted the land’s value by $157,000.




               1
                Nevada Land Exchange Activities, Bureau of Land Management, Report No.
               96-I-1025, July 1996.

                                                16
    ‚ In 1998, we performed a followup 2 review of BLM’s
      corrective actions, including work done by a BLM
      technical review team, and identified significant continuing
      problems with BLM’s appraisal and valuation process in
      Nevada. We found that BLM’s Washington Office failed
      to detect or report these problems in its technical review
      report. In particular, BLM was still not adhering to
      applicable laws, regulations, and BLM policies and
      procedures and was not documenting significant deviations
      from procedural requirements that adversely affected land
      valuations. We found that in two separate exchanges, BLM
      accepted appraisals that were not performed in compliance
      with appraisal standards, resulting in a $12.3 million loss
      because the land acquired by BLM was overvalued.

    ‚ As part of our 1998 followup review, we evaluated
      BLM’s processing of the Del Webb land exchange 3 and
      found that BLM’s Washington Office overrode procedural
      safeguards ensuring the appraisal of public land in
      accordance with federal appraisal standards. We were
      particularly concerned that the Washington Office allowed
      the landowner to select both the appraiser and the review
      appraiser to estimate the value of public land, removed
      BLM’s Nevada State Chief Appraiser to appease the
      landowner, and accepted the appraised value of
      $43 million even though the appraisal did not comply with
      federal appraisal standards. After we announced plans to
      review the exchange, BLM contracted for a second
      appraisal, which complied with federal appraisal
      standards and valued the public land at $52.1 million. Had
      BLM consummated the exchange using the appraisal
      initially accepted by BLM’s Washington Office, the public
      land would have been undervalued by more than $9
      million.

       As a result of our concerns, we recommended that BLM
       (1) identify its land exchange program as a material
       weakness at the Departmental level; (2) establish a land
       exchange review team that included non-BLM members
       and appraisal experts to provide independent and expert
       advice and oversight on all significant exchanges; and


2
Followup of Nevada Land Exchange Activities, Bureau of Land
Management, Report No. 98-I-689, September 1998.
3
 The Del Webb Land Exchange in Nevada, Bureau of Land Management,
Report No. 98-I-363, March 1998.

                                 17
       (3) place a moratorium on land exchanges in the State of
       Nevada pending establishing the independent land
       exchange review team. We also recommended that BLM
       ensure that its appraisals complied with federal appraisal
       standards and revise its land exchange handbook and other
       BLM guidance for consistency with established law and
       regulations.

    ‚ In June 2000, GAO reported4 that BLM and USFS had
      given more than fair market value for land they acquired
      and received less than fair market value for public land
      they conveyed because the appraisals used to estimate land
      values did not always meet federal standards. GAO noted
      that BLM and USFS had taken steps to increase
      management oversight of land exchanges, which, if
      properly implemented, should improve how the exchange
      programs were conducted. GAO also noted, however, that
      while handbook revisions and enhanced training clarified
      land exchange policies and procedures, they did not ensure
      that revisions were appropriate or followed. On the basis
      of this and other fundamental issues, GAO referred the
      matter for Congressional consideration with a suggestion
      that Congress consider directing both agencies to
      discontinue their land exchange programs.




4
 BLM and the Forest Service: Land Exchanges Need to Reflect
Appropriate Value and Serve the Public Interest, Report No. RCED-00-73,
June 2000.

                                  18
           Appendix 3
     Agency Response




19
20
21
Appendix 4
Status of Audit Recommendations




      Recommendation        Status                Action Required
             1         Resolved, Not   Contract with The Appraisal
                       Implemented     Foundation for a review of BLM’s
                                       appraisal organization, policies, and
                                       procedures, including an evaluation of
                                       the alternative approach implemented
                                       in Washington County, Utah.
             2         Resolved, Not   Implement the changes recommended
                       Implemented     by The Appraisal Foundation to ensure
                                       that BLM has a first-class appraisal
                                       system that protects the integrity and
                                       independence of the appraisal process.




                                 22
                             MISSION STATEMENT
                                 The Office of Inspector General conducts and supervises audits and
                                 investigations of Departmental operations and programs to:

      Promoting                        #      Promote the economy, efficiency, and effectiveness of
      Economy,                                Departmental programs, and
      Efficiency, and                  #      Prevent and detect fraud, waste, and abuse in
      Effectiveness                           Departmental programs and operations.

                                To accomplish our mission, we:

                                       #     Advise agency officials and Congress of changes needed
                                             in Departmental operations,
     Through                           #     Provide guidance on existing and proposed legislation
     Detection,                              and regulations relating to agency operations,
     Reporting, and                    #     Refer information to the U.S. Attorneys for possible
     Monitoring                              prosecution.
                                       #     Report to Congress on actions taken to correct reported
                                             problems.




HOW TO REPORT FRAUD, WASTE, AND ABUSE
Fraud, waste, and abuse in Government is the concern of everyone–Office of Inspector General
staff, Departmental employees, and the general public. We actively solicit allegations of any
inefficient and wasteful practices, fraud, and abuse related to Departmental operations and
programs. You can report allegations to us by:

               MAIL                                 PHONE                              INTERNET

    U.S. Department of the Interior        Our 24-Hour toll-free number:   www.oig.doi.gov/hotline_form.html
     Office of Inspector General                1-800-424-5081
        Mail Stop 5341-MIB                 Washington Metropolitan Area:
        1849 C Street, N.W.                       202-208-5300
       Washington, DC 20240                  Northern Pacific Region:
                                                  671-647-6060
                                                Caribbean Region:
                                                  703-235-9221
                                                      Fax:
                                                  202-208-6023
                                                Hearing Impaired:
                                                  202-208-2420
